I

1

JAN 01 2221

IN THE
SUPREME COURT OF THE UNITED STATES
STEVEN GENE KNTCKF.RROCKF.R-PETITIONER
VS.
WISCONSIN ET. AL. - RESPONDENT(S)
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for writ of certiorari
without prepayment of costs and to proceed in forma pauperis.

\

Please check the appropriate boxes
□Petitioner has previously been granted leave to proceed in forma pauperis in
any other court(s) by Lynn Adelman
Eastern District of Wisconsin United States Court 18 cv 705,& 706, 7th circuit of
the United States Appeals Court of Chicago Illinois 19-2918
^Petitioner had not previously been granted leave to proceed in forma
pauperis in any other court
□Petitioner’s affidavit or declaration in support of this motion is attached
hereto.
□Petitioner’s affidavit or declaration is not attached because the court below
appointed counsel in the current proceedings, and:
□The appointment was made under the following provisions of law:
■* °r

□a copy of the order of appointment is appended.

RECEIVED
FEB 2 3 2021
I OFFICE OF THE CLERK
L SUPREME C&URT l iq

2

AFFIDAVIT OR DECLARATION
IN SUPPORT OF LEAVE TO PROCEED IN FORMA PAUPERIS
I, Steven Gene Knickerbocker, am the petitioner in the above-entitled
case. In support of my motion to proceed in forma pauperis, I state that because
my poverty I am unable to pay the costs of this case or to give security therefor,
and I believe I am entitled to redress.
1.

For both you and your spouse estimate the average amount of money
received from each of the following sources during the last 12 months.
Adjusted any amount that was received weekly, biweekly, quarterly,
semiannually to show the monthly rate. Use gross amounts, that is , amounts
before any deductions for taxes or otherwise.
Income source Average monthly amount during amount expected
the past 12 months
next month
you
spouse
you spouse
Employment
$4
NA
$4
NA
Self-employment

NA

NA

NA

NA

Income from real property NA NA
(such as rental income)

NA

NA

Interest or dividends NA

NA

NA

NA

Gifts

NA

NA

Alimony

NA

NA

Child Support

NA

NA

Retirement

NA

NA

Disability

NA NA

Unemployment payments NA NA
Public assistance
NA
NA
Other Specify

NA

NA

NA

NA
NA
NA

NA
NA

NA
NA
NA
NA

NA
NA
NA

NA
NA
NA

NA
NA
Total monthly income $4 NA
2. List your employment history for the past two years, most recent first. Gross

3

4. How much cash do you and your spouse have? $ 0
Type of account (e.g., checking or savings) Amount you have amount your
spouse have? 47.00 untouchable in release account
prison account

$___ 15.67__

$___ 0

5. list the assets, and their values, which you own or your spouse owns. Do not
list clothing and ordinary house hold furnishings
□ home

□ other real estate

Value_$0

value $0

□ motor vehicle #1

□ motor vehicle #2

Year, make,modell999 dodge 1500w plow year,make,model vw 1995 Jetta
□other assets
Description clothing of suits ranging of 800 to 1400, tools ps4, motorcycle
Value$ 6,000 +
6. State every person, business, or organization owning you or your spouse
money, and the amount owed.
Person owning you or

amount owed to you

amount owed to spouse

Your spouse money
Andrew Shopfer
Ctv

$ 2,000 for work

$0

$ 500. For work

7 State the persons who rely on you or your spouse for support. For minor
children, list initials instead of names( e.g. JS instead of john smith
Name

relationship

age

TK

Daughter

25

MK

Daughter

24

8. Estimate the average monthly expenses of you and your family. Show
separately the amounts paid by your spouse. Adjust any payments that are made
weekly, biweekly, quarterly or annually to show the monthly rate.
Rent or home mortgage payment
(include lot rent for mobile home

you
NA

Utilities electricity, heating fuel,

NA

Water, sewer, and telephone)

NA

spouse
NA
NA
NA

4

Insurance
Home owners or renters
Life
Health
Motor vehicle
Other
Taxes( not deducted from wages or included in mortgage payments)
Specify:
Installments payments
Motor vehicle
Credit cards
Department store(s)
Other:____________
Alimony, maintenance and support paid to others
Regular expenses for operation of business profession’
Or farm attach detailed statements
Other specify
Total monthly expenses:
9. Do you expect any major changes to your monthly income or expenses or in
your assets or liabilities during the next 12 months? No
10. Have you paid-or will you be paying- an a attorney any money for services in
connection with this case, including the completion of this form?
No, Unless
he does some work doing this so far by myself, no lawyer has helped me
11. Have you paid- or will you be paying- anyone other than an attorney such as
a paralegal or a typist and money for services in connection with this case,
including the completion of this form? No, doing this myself no lawyer has
tried to help all afraid to go against the state, and no typist did this myself
12 Provide any other information that will help explain why you cannot pay the
costs of this case? Locked up in prison and cannot access the money needed,
Beth D. Knickerbocker is the comptroller of the currency in Washington , DC,
Money has been tried to be sent to the court but Stephen Dries keeps sending
the money back to the sender, saying the case does not exist in the eastern
district court of the united states I declare under the penalty of perjury that the
foregoing is true and correct. Executed on April 17th 2020, and is still on the legal
web under Knickerbocker v Stertz, needs a ruling

